0

BECKER GALLAGHER
Briefs

Supreme Court of the United States
United States Courts of Appeals

and Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that the original
and 2 copies of the foregoing Motion by First Liberty
Institute for Leave to File Brief as Amicus Curiae and
Brief as Amicus Curiae in Support of Applicant's
Emergency Application for Writ of Injunction in No.
20A90, Agudath Israel of America, Agudath Israel of
Kew Garden Hills, Agudath Israel of Madison, Rabbi
Yisroel Reisman, Steven Saphirstein v. Andrew M.
Cuomo, Governor of New York, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day Service and e-mail to the following
parties listed below, this 20th day of November, 2020:
Avi David Schick
Troutman Pepper Hamilton Sanders LLP
875 Third Avenue
New York, NY 10022
(212) 704-6126
avi.schick@troutman.com
Counsel for Applicants

Barbara D. Underwood
Solicitor General of the State of New York
New York State Office of the Attorney General
Division of Appeals & Opinions
23rd Floor
28 Liberty Street
New York, NY 10005
Barbara.underwood@ag.ny.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001
www.beckergallagher.com

Suite 102

1300 I Street, NW, Suite 400E

Cincinnati, Ohio 45249

Washington, DC 20005

Kelly J. Shackelford
Counsel of Record

Hiram S. Sasser, III
David J. Hacker
Michael Berry
Stephanie N. Taub
Lea E. Patterson
First Liberty Institute
2001 West Plano Parkway
Suite 1600
Plano, TX 7 507 5
(972) 941-4444
kshackelford@firstliberty.org
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 20, 2020.

Donna J. Wol�
U
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date: .{/(iu,;'n k_ µ::; /

cJct-.-

rJ ,

Notary Public

Jo do

/J�lou

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
Februsry 14, ?0?3

